■

No:

3fa tlje
Supreme Court of tfje ?Hmteb States
STEPHEN HENDERSON,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHT CIRCUIT
PROOF OF SERVICE
I, Stephen Henderson, do swear declare that on this day,

?

day of June

2020, as required by Supreme Court Rule 29,1 have served the enclosed Motion
for Leave to Proceed in Forma Pauperis and Petition for Writ of Certiorari, on the
Solicitor General of the United States, Room 5614, Department of Justice, 10th
Street and Constitution Ave., N.W., Washington, D.C. 20530, and every other
person required to be served, by depositing the same in the Prison’s Legal Mail
Box with sufficient First Class Prepaid Postage.

i

fi

I hereby do certify that pursuant to Penalty
of Penury Title 28 U.S.C. § 1746 that on
this
day of June 2020 I signed and
mailed this document via the Federal Bureau
of Prisons’ Legal Mail System.

siStephen Henderson
Reg. # 34996-044
USP Coleman II
P.O. Box 1034
Coleman, Florida 33521

